                                  Closeout for M99080044

On August 11, 1999, we received an e-mail complaint from a former PI1 who alleged that an
NSF web-based award abstract2 deprived him of authorship credit. The former PI indicated
that this abstract listed only the names of the current PIS for the award, but failed to
reference his name even though he originally wrote and submitted the funded proposal.

Although internal NSF records demonstrate the veracity of the former PI'S authorship claim,
NSF's publicly accessible web site offers no such support. In general, NSF displays only the
names of current PIS on all of its web-based award abstracts. We sent the former PI a copy
of the grant's award letter and cover page for use as proof of his original contribution.
Furthermore, we recommended that NSF's web-based award abstracts should identify both
former and current PISwhere appropriate.3

On March 20, 2000, we were informed that NSF initiated implementation of our
rec~rnrnendation.~

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




1
2
3
    Footnotes Redacted



                                         Page 1 of 1                                M99-44
